No.

3fn tbe �upteme Court of tbe llniteb �tate.s
UKRAINE,
PETITIONER,
V.

PAO TATNEFT, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF SERVICE
I, Maria Kostytska, a member of the Bar of this Court, hereby certify that on
November 8, 2018, three copies of the petition for certiorari in the above-captioned
case were served, as required by Supreme Court Rule 29.3, on:
Jonathan I. Blackman
Cleary, Gottlieb, Steen & Hamilton, LLP
One Liberty Plaza
New York, NY 10006
(212) 225-2490
Fax: (508) 228-9468
Email: jblackman@cgsh.com
I further certify that all parties required to be served have been served.

Maria Kostytska

